No. 19-1143
IN THE SUPREME COURT OF THE UNITED STATES
FMC CORPORATION, PETITIONER
v.
SHOSHONE-BANNOCK TRIBES
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES AS AMICUS CURIAE, via e-mail and first-class
mail, postage prepaid, this 9TH day of December, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5983
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 9, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 9, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice,
in addition to mailing your brief via first-class mail, we would appreciate a fax or
email copy of your brief. If that is acceptable to you, please fax your brief to
Charlene Goodwin, Supervisor, Case Management, Office of the Solicitor
General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms.
Goodwin’s phone number is (202) 514-2217 or 2218. Thank you for your
consideration of this request.

19-1143
FMC CORPORATION
SHOSHONE- BANNOCK TRIBES

GREGORY GEORGE GARRE
LATHAM & WATKINS LLP
555 11TH STREET, NW
SUITE 1000
WASHINGTON, DC 20004
202-637-2200
GREGORY.GARRE@LW.COM
NEAL KUMAR KATYAL
HOGAN LOVELLS US LLP
555 THIRTEENTH ST., N.W.
WASHINGTON, DC 20004
202 637 5528
NEAL.KATYAL@HOGANLOVELLS.COM
LAURA KATHLEEN MCNALLY
LOEB & LOEB, LLP
321 N. CLARK ST.
CHICAGO, IL 60654
JEFFREY HEATH WOOD
BAKER BOTTS L.L.P.
700 K STREET, NW
WASHINGTON, DC 20001

